<html>
<title> - TURKEY AFTER THE JULY COUP ATTEMPT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                   TURKEY AFTER THE JULY COUP ATTEMPT

=======================================================================

                                 HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 14, 2016

                               __________

                           Serial No. 114-222

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ___________


                        U.S. GOVERNMENT PUBLISHING OFFICE
21-542PDF                        WASHINGTON : 2016                        

_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d6b1a6b996b5a3a5a2beb3baa6f8b5b9bbf8">[email&#160;protected]</a>  





                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       GREGORY W. MEEKS, New York
TOM MARINO, Pennsylvania             ALBIO SIRES, New Jersey
MO BROOKS, Alabama                   THEODORE E. DEUTCH, Florida
PAUL COOK, California                WILLIAM KEATING, Massachusetts
RANDY K. WEBER SR., Texas            LOIS FRANKEL, Florida
REID J. RIBBLE, Wisconsin            TULSI GABBARD, Hawaii
DAVID A. TROTT, Michigan
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Nina Ognianova, coordinator, Europe and Central Asia Program, 
  Committee to Protect Journalists...............................     5
Mr. Alan Makovsky, senior fellow, Center for American Progress...    14
Ahmet S. Yayla, Ph.D., deputy director, International Center for 
  the Study of Violent Extremism.................................    29
Aaron Stein, Ph.D., resident senior fellow, Rafik Hariri Center 
  for the Middle East, Atlantic Council..........................    43

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Nina Ognianova: Prepared statement...........................     8
Mr. Alan Makovsky: Prepared statement............................    16
Ahmet S. Yayla, Ph.D.: Prepared statement........................    32
Aaron Stein, Ph.D.: Prepared statement...........................    45

                                APPENDIX

Hearing notice...................................................    68
Hearing minutes..................................................    69

 
                   TURKEY AFTER THE JULY COUP ATTEMPT

                              ----------                              


                     WEDNESDAY, SEPTEMBER 14, 2016

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:25 p.m., in 
room 2200, Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the subcommittee) presiding.
    Mr. Rohrabacher. Let me go on record right off the bat by 
saying how happy I am that Congressman Meeks and I decided to 
have haircuts on the same day. All right. Okay.
    I call this hearing to order. Just over 2 months ago, this 
subcommittee met for a hearing focused on Turkey's democratic 
decline, the second such hearing that has been held by this 
committee. Eight days later, an attempt was made to overthrow 
the AKP government, and during the chaos and conflict on the 
night of July 15, over 240 Turkish civilians were killed, and 
the Turkish Parliament bombed from the air.
    As one might expect, this and the following upheaval that 
followed it has been a traumatic experience for the people of 
Turkey. Let them have no doubts, however, that the United 
States stands by them in our support for democracy and the rule 
of law. President Obama has made that clear on July 15, and 
that remains the case.
    Unfortunately, great damage has been done, and great damage 
has been done as part of the coup attempt, but, at the same 
time, President Erdogan has been making a bad situation worse 
by using the failed coup as an opportunity to expand his own 
political power. In short, after the coup collapsed, a state of 
emergency was declared, and the government began arresting a 
wide range of opponents that had nothing to do with the coup. 
Journalists, secularists, military officers, government 
officials who did not agree with President Erdogan's vision for 
Turkey, they were arrested, 10,000 of them, and they have been 
arrested, and a number of them have been tortured.
    The Turkish Government is blaming its travail on--and I 
can't pronounce his first name--Fethullah Gulen. Okay.
    Mr. Weber. Fethullah Gulen.
    Mr. Rohrabacher. There it is.
    A Turkish religious philosopher living in exile on a 
Pennsylvania farm. The claim that he personally planned and 
ordered the coup has been accepted by many Turkish citizens 
despite the lack of substantial evidence to indicate that. To 
this effect, I don't find such charges to be credible, and I 
believe that the Turkish Government has erred by proclaiming 
anyone and everyone involved in the Gulenist religious movement 
to be part of a conspiracy that put on the coup.
    Again, over perhaps 100,000 civil servants, military 
officer, teachers, policemen, prosecutors, even judges have 
been removed from their jobs and many of them have been 
arrested. They have been replaced by Erdogan's cronies, by 
political opportunists, and, yes, by even Muslim Brotherhood 
radicals and other Islamic fascists. As one example of how far 
these ridiculous purges have gone, the Turkish soccer 
authorities announced they have fired 94 officials, including a 
number of soccer referees, for their ties to the coup. Over 
20,000 people--whatever that exact number, it is in the tens of 
thousands--have been arrested, and the Government of Turkey has 
used this coup to settle old scores and to clean out the house 
of those it does not seem--or deem sufficiently loyal to 
Erdogan's vision for Turkey.
    Incredibly, it was reported last month that Turkey would 
release 38,000 criminals from prison to make room for those 
taken into custody in these purges, letting murderers, rapists, 
thieves go in order to make room for political opponents. It 
doesn't get much worse than that.
    As we have in our conversations about recent events in 
Turkey, I want to underline my desire to see Turkey become an 
economically strong partner of the United States that is at 
peace both at home and with its neighbors. The Turks have been 
wonderful allies of the American people. And as we are going 
through this testimony today and we are seeing what the current 
regime in Turkey is doing, which is heavy handed and wrong--
let's not forget that the Turkish people themselves have been 
so loyal to us. We must wish them well and do what we can to 
try to help them through this confusing time period. I mean, 
Turkey, as I say, needs, in order to do that and to--and for us 
to succeed and for them to succeed, Turkey needs to have strong 
democratic institutions, a free press, and a country in which 
people abide by the rule of law.
    The government's current witch hunt that sees disloyal 
Gulenists behind every door is bound to backfire, even in the 
short run, but be disastrous in the long run. The fear and 
tension created by a thuggish coup and by a heavy-handed 
response does not and is not serving the Turkish people well.
    I want to thank our witnesses for appearing here today. 
And, without objection, their written statements will be made 
part of the record, and all members will have at least 5 
legislative days to submit additional written questions or 
extraneous materials for the record.
    I now turn to our ranking member, Mr. Meeks, for his 
opening statement.
    Mr. Meeks. Thank you, Chairman Rohrabacher, for calling 
today's hearing on Turkey and giving us an opportunity to 
discuss the attempted coup and its consequences for Turkey and 
the United States and Turkey's relationship.
    Clearly, the coup was a traumatic shock to the system. I 
can recall when it was taking place looking at my television 
screen in disbelief. So it is clear, and I agree with Mr. 
Rohrabacher in this aspect, I stand in solidarity with the 
democratically elected Turkish Government and against any 
violent attempts to overthrow it or any other democratically 
elected government. Democracy is important. We can't have coups 
d'etat. We have got to speak out against coups d'etat in order 
to have democratic order.
    When I think about over 270 people were killed as the 
Parliament and ministries were attacked with helicopters and F-
16s joining the fight, I can't even imagine such a scene here 
in Washington, DC, soldiers firing into civilian crowds. We 
cannot, and I can't believe as Members of Congress that that is 
something that we want to see or can condone in any way. It is 
our job to respect and defend the democratic process, and a 
democratic Turkey is in everyone's best interests.
    Following the failed coup, there has been a big issue of 
Mr. Gulen, his residency in Pennsylvania, and his movement's 
involvement in the coup. And it has taken on an increasingly 
charged role in Turkish-U.S. relations. The United States has 
taken the accusations and requests for Mr. Gulen's extradition 
and detention very seriously, but as I say, in democracies, 
there are processes. There are institutions, and there is a 
judicial process that is in place now and a related treaty that 
will determine this outcome. So it is not something that could 
be done arbitrarily or capriciously or anything of that nature. 
There is a process that has to be had and should be. That is 
the reason why we have these institutions, and that is the 
reason why we have these treaties.
    So I say just linking the U.S. Government to the coup, 
apart from being false, damages our important relationship, and 
it is something that I deeply care about because the 
relationship between the United States and Turkey is very 
important. I understand that members of the Turkish Government 
are understandably angry, but emotional statements and 
accusations will not expedite the judicial process. It has to 
run its course, as our judicial system demands.
    And perhaps, as a result of the failed coup and subsequent 
purges, Turkey has markedly stepped up its fight against Daesh 
in Syria. Turkey is a NATO ally and plays an essential role in 
the region, and has sought to mend relations with Russia and 
Israel. And while cooperation with those countries is welcome, 
Turkey's role in NATO and as host to over 1,500 U.S. troops 
remains especially important to the United States Congress.
    In our previous hearing on this topic we discussed Turkey's 
democratic development, the Kurdish question, and the role of a 
civil society in Turkey. During the failed coup and afterwards, 
in an impressive show of unity, all Turkish political parties 
came to the defense of the elected government and even 
supported a search for those allegedly responsible for the 
coup, including Gulenists and members of Hizmet movement. 
Indeed, those found guilty should be rooted out of the 
government's organs and brought to justice.
    The state of emergency, however, must not be used to cover, 
to detain, arrest, and fire those with no responsibility for 
the coup. How many judges, teachers, and businessmen have been 
found innocent and allowed to return to their posts? We must 
look at and analyze because if you had nothing to do with this 
and you are found innocent, as I am sure there are many 
individuals, they should be returned to their posts. 
Furthermore, are members of the legal pro-Kurdish movement, the 
HDP, being unjustly ensnared in a political war? As previously 
mentioned, we must protect the United States-Turkey 
relationship and simultaneously encourage strong democratic 
institutions and respect for the law.
    So, for me, this is an important hearing to listen to these 
witnesses, to get your expert viewpoints on what is or is not 
taking place in Turkey, because it is important for us to 
decide as Members of the United States Congress what we should 
or should not do, what we should or should not say.
    Just as I say that, the Turkish Parliament should not do 
things based upon emotion, I also believe that we in the United 
States Congress should not do something just based upon 
emotion. We need to try to figure out what the issues are and 
what the facts are, and move accordingly because it is 
important for our relationship, and I think all over the world 
that the U.S. and Turkey have a strong relationship.
    So I want to thank the witnesses in advance for their 
testimony, and I look forward to asking questions as we move 
forward. And I yield back.
    Mr. Rohrabacher. I thank you, Mr. Meeks.
    One of our members also has a 1-minute opening statement, 
Colonel Cook from California.
    Mr. Cook. Thank you very much, Mr. Chair.
    I think a number of us are worried about Turkey. Obviously, 
this is a Foreign Affairs Committee hearing. I am also on the 
House Armed Services Committee. I am also on the NATO 
Parliament. As already discussed, everybody knows that Turkey 
has been a key ally. It is a member of NATO. The Turkish 
Americans in my district throughout California, very, very 
close to the business climate, all those pluses. I think right 
now everybody is very, very nervous about the Erdogan 
government, some of the things that are happening as we speak, 
obviously, the relationship with the Kurds, the relationship 
with some of the Christians. And I am not sure--right now, I 
don't have that optimism about Mr. Erdogan. And this was well 
before the coup. And this is going to determine whether our 
military relations continue. We have a key base at Incirlik. We 
had problems before. We are going to see what happens after the 
coup. And we also have an impending sale of F-35s, the most 
advanced aircraft. And whether that will still be approved by 
the administration and Congress, that is something that is 
coming up.
    So this coup and everything that has happened there, I am 
not as optimistic as my colleagues because of some of the mixed 
signals, but then you look at Israel, that a year or 2 years 
ago, they had severed diplomatic relations, and surprisingly 
enough, recently they have kind of normalized relations with 
Turkey.
    So, hopefully, we can get passed this, hopefully we can 
establish a dialogue with Mr. Erdogan, and hopefully, we can 
have a democracy in a country right now where, in my opinion, 
it does not exist.
    Thank you very much, Mr. Chairman.
    Mr. Rohrabacher. Today, we have four excellent witnesses. 
And my direction would be, as usual, if you could get to the 
heart of the matter and give us 5 minutes of the basic 
information you think we need to know. The rest of your 
statement will be made part of the record. And we will proceed 
with that in mind.
    And our first witness--and I will introduce all witnesses, 
and then you will testify--Nina, and, again, I am going to 
pronounce this, Ognianova? That is good enough? All right. And 
she is the coordinator for Europe and Central Asia programs for 
the Committee to Protect Journalists, where she has tracked 
developments in Turkey for the past several years. Previously, 
she worked as a writer for the International Journalists 
Network and earned a master's degree from Missouri School of 
Journalism.
    And next is Alan Makovsky, who is a senior fellow at the 
Center for American Progress. He has been with us several 
times, and I am finally learning how to pronounce his name. It 
is a private think tank, of course, the Center for American 
Progress, and it is here in Washington, DC. And for more than a 
decade, he served as a senior professional staff member right 
here, so we give him a little leeway that way, on the Foreign 
Affairs Committee of the House Foreign Affairs Committee, 
covering the Middle East, Turkey, and the other problems that 
we tackled in this committee. Before that, he directed the 
Washington Institute's Turkey Research Program and was an 
employee of the State Department.
    We have next Ahmet Yayla. Good. Got it. And he is an 
adjunct professor at the Department of Criminology, Law, and 
Society at George Mason University, and the deputy director of 
the International Center for the Study of Violent Extremism. He 
has a long career as a Turkish law enforcement officer and 
served as chief of the antiterrorism division of the Turkish 
National Police. And he has earned his master's degree and 
Ph.D. Degrees from the University of North Texas. And he is the 
author of a recent book, and I would ask you to give us the 
title of your book during your testimony. See? There you go. 
Okay.
    And then there is Aaron Stein, a senior fellow at the 
Atlantic Council's Rafik Hariri Center for the Middle East--
Hariri, okay--where this institute follows and comments on 
developments in Turkey and in the region. Dr. Stein received 
his Ph.D. In Middle East and Mediterranean studies at King's 
College in London.
    Does that mean you are English?
    Mr. Stein. No. American.
    Mr. Rohrabacher. Oh, there. All right.
    So we will start on this end, and we will then, after 5-
minute presentations, open it up for questions from the panel. 
Okay. Thank you.

   STATEMENT OF MS. NINA OGNIANOVA, COORDINATOR, EUROPE AND 
     CENTRAL ASIA PROGRAM, COMMITTEE TO PROTECT JOURNALISTS

    Ms. Ognianova. Mr. Chairman and members of the 
subcommittee, thank you for the opportunity to testify on press 
freedom in Turkey after the July 15 coup attempt. My name is 
Nina Ognianova, and I am the Eurasia program coordinator at the 
Committee to Protect Journalists. We are a press freedom 
organization dedicated to defending the rights of journalists 
worldwide, and it is an honor to speak with you today.
    My oral statement will be a summary of my written 
statement, which contains extended analysis and specific 
examples of press freedom violations in Turkey.
    On July 15, military officers attempted to overthrow 
Turkey's elected government. Thousands of Turks took to the 
streets to defend it, and more than 200 were killed. In this 
crucial moment, Turkey's usually polarized society was united. 
The AKP received overwhelming support from across the political 
spectrum, but instead of channeling that support to bridge 
differences, authorities have been using the failed putsch to 
purge their opponents: Mounting a sweeping crackdown on the 
critical media when Turkey most needs a plurality of voices. 
The government immediately blamed the coup on the Hizmet 
movement, followers of preacher Fethullah Gulen, whom the 
Turkish Government accuses of leading a terrorist organization. 
Gulen has denied all accusations.
    Within days after the putsch, the AKP announced the state 
of emergency that allowed it to govern by decree. Within a few 
weeks, the government had closed down more than 100 media, 
including broadcasters, newspapers, magazines, publishers, and 
distribution companies, and it had detained over 100 
journalists. At least 30 news Web sites were censored by state 
regulators. Some journalists have managed to escape into exile. 
Others' passports were canceled to prevent their departure. 
Judges suspected of having ties to Hizmet were purged and 
replaced with AKP loyalists.
    The Prime Minister's office has revoked the press 
credentials of over 600 journalists. In mid-August, CPJ's 2016 
International Press Freedom Award recipient, Can Dundar, 
resigned his editorship of the daily Cumhuriyet and said he 
would not return to Turkey while the state of emergency was in 
effect. Trusting the judiciary, Dundar said, would be like 
laying one's head on the guillotine.
    The scope of the purge has spread far beyond the 
requirements of the safety and security of the Turkish state. 
With all the media outlets perceived as tied to Gulen already 
shuttered and with the list of journalists arrested for once 
having worked at this media growing by the day, the purge has 
now moved on to individual critics of both the government and 
the Hizmet movement, and the long-standing judicial and police 
harassment of the Kurdish media has intensified.
    The state of emergency has given security agencies the 
right to detain individuals for up to 30 days without access to 
a judge, which has created conditions in which detainees are at 
risk of abuse. In my written testimony, I have described 
several cases of reported police abuse of journalists in 
custody, and all of these abuses have been carried out with 
impunity.
    CPJ is dismayed at the cancellation of a growing number of 
journalists' passports. This punitive measure has been extended 
to the family members of the accused. In one disturbing recent 
case, on September 3, Can Dundar's wife, Dilek, here in the 
picture, was prevented from traveling to Europe to visit her 
husband in exile. Security officers confiscated her passport 
without giving any reason. She has not been charged with a 
crime, so the only explanation for this official action is that 
she is being punished for her husband's journalism.
    There is much that remains unclear about the July 15 coup 
attempt, but instead of allowing Turkish journalists to do 
their job and to investigate the truth about this conspiracy, 
the government is making the press pay the price for the 
illegal actions of rogue military officers.
    Turkey's domestic purge of its media has international 
repercussions. Credible independent media reports are vital for 
the world's understanding of Turkey's handling of the Syrian 
refugee crisis or the battle against Islamic State.
    While it is important to condemn the coup attempt, we 
strongly urge U.S. leaders to condemn the continuing purge of 
opposition and independent media. The U.S. should allow Turkish 
journalists caught in the post-coup purge to travel to the 
United States. CPJ awardee Can Dundar hopes to travel to New 
York in November to receive his award. The U.S. should not 
honor Turkish arrest warrants for journalists and should 
encourage other countries not to honor those warrants as well 
and should treat journalist's travel documents as valid even if 
Turkey has already canceled them. We urge Congress to consider 
imprisoned Turkish journalists as prisoners of conscience, 
including the more than 100 journalists detained in the 
aftermath of the failed coup.
    Plunging to a naked authoritarianism risks destabilizing 
Turkey, which is a vital U.S. ally. Putting an end to the ever 
broadening crackdown on independent media is a vital step 
toward stopping and reversing that plunge before it becomes too 
late.
    Thank you for providing CPJ with the opportunity to address 
you today.
    [The prepared statement of Ms. Ognianova follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Mr. Rohrabacher. Thank you very much.
    Mr. Makovsky.

   STATEMENT OF MR. ALAN MAKOVSKY, SENIOR FELLOW, CENTER FOR 
                       AMERICAN PROGRESS

    Mr. Makovksy. Thank you. Thank you, Mr. Chairman. Chairman 
Rohrabacher, Ranking Member Meeks, esteemed members of the 
subcommittee----
    Mr. Rohrabacher. Put the mike a little closer to you. There 
you go.
    Mr. Makovksy. Yeah. I forgot to turn it on. Second time in 
a row I have done that.
    Mr. Rohrabacher. How much you forget.
    Mr. Makovksy. Yeah. I told you I wasn't on this side of the 
table before. Anyway, I will start again.
    Chairman Rohrabacher, Ranking Member Meeks, esteemed 
members of the subcommittee, it is an honor to have been 
invited back to testify here today on this important topic. 
Maybe I will get it right this time.
    Mr. Chairman, any discussion of the post-coup environment 
in Turkey must begin with an acknowledgement that Turkish 
society endured an enormous trauma on July 15, as you and the 
ranking member and Mr. Cook all said in your opening remarks. 
As well, I think we should acknowledge that the U.S. and, for 
that matter, European Union's response to the coup was less 
than optimal, inadvertently feeding conspiracy mindedness in 
Turkey.
    That said, it is now 2 full months since the coup, and it 
is more than fair to take stock of the Turkish Government's 
reaction. Their reaction has been found wanting in three major 
ways. First of all, the vastness and persistence of the purge 
of the civil service, which you have detailed in your opening 
remarks, the arrest of journalists, the closure of media 
outlets, the arrests for spurious reasons, many of these 
arrests having nothing whatsoever--of people having nothing 
whatsoever to do with Gulen or Gulenists, has turned a somewhat 
understandable initial desire to err on the side of caution 
into an unbridled witch hunt. Even President Erdogan recently 
expressed some concern about how vast this is, and he said to 
governors: You should not vie with one another to see who can 
arrest more people.
    And this is happening against a background of growing 
authoritarianism in Turkey that predates the coup attempt, as 
we discussed at our previous hearing.
    Second, even in ostensibly pursuing post-coup unity, 
President Erdogan's approach has been divisive. Revulsion of 
the coup attempt and justifiable pride in thwarting it through 
popular action united many Turks in the coup's immediate 
aftermath. However, government-led post-coup efforts at healing 
were, in fact, themselves divisive, excluding the party that 
most Kurds in Turkey's southeast support, the People's 
Democracy Party, or HDP, which is in fact, the third largest 
party in Parliament. For example, HDP has been excluded from 
talks on a new Turkish constitution, and it was excluded from 
the emotional August 7 Istanbul rally that attracted millions 
of Turks supporting democracy and condemning the coup.
    Third, the Turkish Government has engaged in anti-U.S. 
scapegoating following the coup attempt, primarily through 
means of the heavily pro-government media, which has repeatedly 
blamed the coup attempt on the U.S. Government and various U.S. 
citizens, both public and private. The government has 
reinforced this scapegoating by raising suspicions regarding 
Fethullah Gulen's long-time residence in the United States and 
by leading the Turkish public to expect the United States to 
deliver Mr. Gulen to Turkey quickly, with little 
acknowledgement that extradition is a lengthy process that can 
only be successfully achieved with hard evidence.
    According to a generally reliable Turkish poll taken during 
the third week of August, one-quarter of Turks believe that the 
United States was behind the coup whereas 55 percent believe 
Gulen was the mastermind. That means one-quarter believe we 
were much more behind it than even Gulen. Anecdotal evidence, I 
would say, however, suggests that far more than one-quarter 
believe the U.S. had at least indirect involvement in or prior 
knowledge of the coup attempt. According to the same poll, 90 
percent of Turks now have an unfavorable view of the U.S., with 
only 9 percent favorable.
    Looking ahead, it is clear that President Erdogan is now a 
far more dominant ruler than he was even before the coup 
attempt. He is also likely to remain a difficult partner for 
the United States. I don't believe Turkey wants to leave NATO, 
nor should we want it to do so, but President Erdogan's Turkey 
is likely to push the boundaries of partnership at times and 
use its reborn relationship with Russia as well as manipulate 
anti-Americanism at home as leverage with us on bilateral 
issues.
    Two final points quickly, Mr. Chairman, if I may. A good 
relationship with Turkey remains a highest priority U.S. 
national interest, but we should not turn a blind eye to 
Turkey's deteriorating human rights situation nor conveniently 
forget that this deterioration began well before the July 15 
coup attempt.
    Second, and finally, more broadly, we must remain alert to 
the possibility that Turkey could indeed drift from the Western 
alliance. I do not believe that will happen, but given the many 
strains on U.S.-Turkish bilateral relations, the possibility of 
Turkey turning away from the West is now sufficiently plausible 
that it would be wrong not to plan for that contingency.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Makovsky follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. Thank you for that important warning.
    Next, we have Mr. Yayla.

     STATEMENT OF AHMET S. YAYLA, PH.D., DEPUTY DIRECTOR, 
    INTERNATIONAL CENTER FOR THE STUDY OF VIOLENT EXTREMISM

    Mr. Yayla. Thank you very much, Chairman Rohrabacher, 
Ranking Member Meeks.
    Mr. Rohrabacher. And we would like you to speak right into 
that microphone.
    Mr. Yayla. Okay. Dear Chairman Rohrabacher, Ranking Member 
Meeks, members of subcommittee, and ladies and gentlemen, it is 
an honor to testify before you today. Since we have 5 minutes, 
I have detailed in my written statement, but I would like to go 
over a few quick points very fast.
    I think it is critical to understand the pre-coup 
conditions in Turkey, especially in regards to President 
Erdogan. The economy before the coup was suffering very deeply. 
The tourism industry was almost dead after the several 
terrorist attacks. After the shootdown of Russian airplane, the 
sanctions put on Turkey by Putin were deteriorating. The 
economy was very bad, especially tourism suffered a lot. And 
after 2013 December criminal charges against the government, 
the rule of law had started to mean nothing, and several 
international businessmen, businesses and investors left 
Turkey, like Tesco, PayPal, also. And freedom of speech, free 
media, and the rule of law started to mean nothing in Turkey, 
basically eroding the foundations of democracy in Turkey.
    Turkey was going through tough times, and the relationship 
with the West, with the EU, and NATO was deteriorating. 
Erdogan, as the gatekeeper of ISIS, kept tricking the EU with 
the sending of several thousand refugees to the European 
countries. The U.S. was upset with Turkey's failed commitment 
to fight with ISIS and Erdogan's, or Turkey's, illicit support 
to ISIS. For example, the leader of Turkish ISIS, Halis 
Bayancuk, was released from prison almost a year ago, and right 
now, he freely operates inside Turkey without any problems.
    Just a week ago, suspects of Sultanahmet's Blue Mosque ISIS 
suicide attack were released from prison. If you look at the 
arrests of those ISIS people, ISIS suspects, when they got 
arrested somehow they were not handcuffed, but if you look at 
the journalists, when they got arrested, they were handcuffed 
from the back. So that is the approach of the government, 
unfortunately. If you compared the ISIS members and the 
journalists or other people getting arrested.
    Another problem was the Zarrab case. Right now, Zarrab, an 
Iranian Turkish businessman, in New York Federal--being tried 
in New York Federal court, and he was the key person to 
Turkey's oil-to-gold scheme, which was managed by the 
government and Zarrab was managing that, and right now is being 
tried for money laundering, bank fraud, and evading sanctions 
against Iran. And that person was arrested during 2013, 
corruption charges raised by Istanbul police, who Erdogan 
backed up very furiously and who pledged to Erdogan's wife's 
foundation millions of dollars.
    Close associates of Erdogan and his sons were being named 
with dealing with ISIS oil on the media, and Erdogan could not 
produce a diploma, university diploma, which was being 
circulated on social media against him. It was very obvious 
that Erdogan was not able to reach his goal through democratic 
means with all those troubles, as the polls showed that his 
support was diminishing.
    When we look at the aftermath of the coup, I have spent 
almost 20 years as a chief of counterterrorism operations in 
Turkey, and I know the capacity of government officials and 
counterterrorism of the police. As the police was dealing with 
the coup attempters, the security services and intelligence, 
all of a sudden, after 3 hours, Erdogan left Ataturk Airport. 
We had a list of 1,653 military officers who were deemed as the 
perpetrators of the coup, and of whom almost 90 percent were 
not on the field. And all of a sudden, the security services in 
3 hours found ways to investigate the coup attempt. They 
analyzed the evidence they had. They made a list of 1,653 
military officers all over Turkey. They got warrants for those 
officers and distributed those warrants to 81 provinces all 
over Turkey in 3, 4 hours. And then the police somehow started 
to arrest those people in their homes or at their vacation 
places. And from a technical perspective, it should take 
months, not weeks. So it is very clear that that list was 
prearranged. And also we can see that from a list of 
prosecutors and judges who were fired. They fired immediately 
2,000 something prosecutors. One the prosecutors was deceased 
57 days at the time of his firing. So they fired someone who 
died 2 months ago.
    And we can see a lot of examples of that. For example, 
Saygi Ozturk, a prominent journalist. We listed a few of them. 
The list the government had when they were firing the judges 
and prosecutors was prepared almost 2 years ago because the 
cities where they were working were the cities where they were 
working 2 years ago.
    Another important aspect involves the purge, firing, and 
arrests. Over 100,000 people were fired, and almost 60,000 
people were arrested and detained. And nobody knows how those 
lists were arranged and how those people were involved in the 
coup.
    Another important factor is the questions and 
inconsistencies of the statements of important people after the 
coup. For example, the chief of staff, Akar, the Turkish 
national intelligence director came out and said that he 
informed Akar at 4 p.m. About the coup. However, Akar himself, 
he was sitting in his office up until 9 p.m. When he was--until 
he was arrested. He did not inform Erdogan. He did not inform 
the Prime Minister nor did he inform his commanders of the air 
force, army. The air force commanders learned about the coup at 
a wedding in Istanbul. The commander of Gendarmerie learned 
about the coup in Ankara at a wedding. So this is a very 
questionable act on not letting know his superiors, President 
Erdogan and the Prime Minister and others.
    I would like to finish, as I am out of time. My book's name 
is ``ISIS Defectors: Inside Stories of the Terrorist 
Caliphate.''
    And I would like to finish with one note. My son was 
arrested after I wrote an article on this issue in Turkey 
because my passport was canceled, and the charges against my 
son is--the reason that he was arrested was because my passport 
was canceled.
    And I would like to give a story from the prophet Muhammad. 
One companion of the prophet Muhammad asked the prophet 
Muhammad, ``What is the biggest jihad?'' Because nowadays, with 
ISIS, we hear a lot of stories about jihad. The prophet 
Muhammad said, ``A word of truth in front of a tyrant's ears.''
    Thank you.
    [The prepared statement of Mr. Yayla follows:]
      [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
                              ----------                              

    Mr. Rohrabacher. Well, thank you. And we will keep your son 
in mind. And----
    Mr. Yayla. Thank you.
    Mr. Rohrabacher [continuing]. I hope whoever is reading 
this testimony in Turkey understands that we know who your son 
is, and we will not--it will not escape our attention if he is 
continued in captivity.
    Dr. Stein, would you like to proceed?

STATEMENT OF AARON STEIN, PH.D., RESIDENT SENIOR FELLOW, RAFIK 
      HARIRI CENTER FOR THE MIDDLE EAST, ATLANTIC COUNCIL

    Mr. Stein. Thank you very much. Thank you, Mr. Chairman, 
other members of the committee, as well as my panelists for the 
opportunity to speak today.
    I am going to dispense with reading my full statement, and 
instead, in the interest of time, just focus on the main 
takeaways.
    I think the failed coup on July 15, I mean, it was 
obviously a very serious event, and I think the scale of the 
Turkish trauma has been underestimated in this country, even 
people who say that they understand that this was a serious 
event I think still to a certain extent underestimate what took 
place on July 15.
    I also believe that the coup plotters themselves have been 
cast wrong. You know, I don't think that they were these series 
of bumbling fools who made a series of errors. I think that 
they were very serious individuals. I think the coup attempt 
was larger than most people realized. It involved a number of 
different branches of the armed services from two different 
land--you know, land armies, the air force special operations 
command, the navy, and the coast guard. And I do think that 
there is, you know, enough evidence put forward in the Turkish 
press to say that there was Gulenist involvement, but there 
were also a lot of other people involved as well.
    The post-coup purges have obviously been very, very large. 
I believe the last count was 80,000 suspended, with some tens 
of thousands formally arrested. I think it is important to note 
that a lot of these purges have public support in Turkey, and 
that is because of the deep distrust amongst various elements 
of the Turkish, you know, both electorate and people for 
Fethullah Gulen and his role in Turkish society. But I will say 
this: I think there are signs that this unity and this general 
support for the purges is beginning to pass. So, if the rally 
around the flag, you know, is always palpable in states or 
countries that undergo trauma, you know, thinking about our own 
country after 9/11, it eventually does pass, and I think we are 
in that moment at the moment in Turkey.
    I do believe, however, that the sense of nationalism has 
been bolstered by two interrelated things. One is that there is 
a concurrent war going--or counterinsurgency, I should call it, 
in the southeast between the Turkish security forces and the 
PKK. And just to give a sense of how large that conflict is--it 
largely escapes international attention--is, since July, there 
has been greater than 600 Turkish security personnel killed 
and, in a number of different cities that have been destroyed 
by fighting, more than 500,000 IDPs. So this is independent of 
the Syria conflict as well.
    And the other is the instrumentalization of anti-
Americanism. Now, I agree with Mr. Makovsky that this has been 
instrumentalized and that this is largely a populist crutch 
that the Turkish Government is using, one, because I believe, 
as, you know, a public opinion poll has pointed out, that 
people do actually believe that the United States was involved 
in the coup. I think that is far more widespread than most 
people realize. And if we weren't directly involved, because, 
you know, trying to explain the ins and outs of extradition law 
to any public, you know, causes most people's eyes to glaze 
over and they flip the channel.
    And the other is that it is useful because it is always 
easier to blame the foreign other than it is to look internally 
to what was a very domestic Turkish event that the United 
States has nothing to do with the coup; we have nothing to do 
with the execution of Turkish domestic politics, with one 
exception, that Fethullah Gulen is a green card holder.
    The Turkish military, I will focus on as I begin to wrap 
up, has already been affected, and the operational readiness is 
nowhere near where it was before the coup began: 149 flag-
ranking officers have been purged, replaced with 99, so they 
are 50 short of admirals and generals than where we were on 
July 14. The air force has plans to shutter three squadrons, 
perhaps in addition to two more, for a total of five, which 
means that the operational readiness with the commitments that 
they have in three different countries, their own, Iraq, and 
Syria, you know, begin to come into question about how large a 
scale and how they can actually sustain current level of 
operations both against ISIS and the PKK.
    And I think, in closing, I think it is important for us all 
to realize that Turkey is actually unstable, and it is a very 
difficult ally, but nevertheless, it is an important ally. I 
mean, you can't really put your finger on anything that says, 
``This is why Turkey is absolutely instrumental for American 
interests abroad,'' except for the idea that NATO matters, 
transatlantic relations matter, especially at a time when that 
sort of fundamental aspect of American foreign policy is being 
called into question more and more about the value of overseas 
alliance.
    Thank you very much.
    [The prepared statement of Mr. Stein follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. That last statement was----
    Mr. Weber. Interesting.
    Mr. Rohrabacher [continuing]. Is very important, in that we 
have to--look, Turkey--I am 69 years old, for those younger 
people out there who haven't been around that long. Ever since 
I can remember, the Turks have always been at our side, and we 
have been at their side. What a tragedy to lose that goodwill 
and that sense of family that we have had with the Turks. And 
that is one of the reasons why as, over the years, there have 
been different controversies and areas of friction that have 
emerged, I have always bent over backwards to try to be fair to 
my Turkish friends, because they are our friends.
    And, unfortunately, we have now, from what I can see, is 
that the government has gone--the Government of Turkey has gone 
way beyond its bounds of not only propriety but of any type of 
acceptable response to what was an illegal and bloody and 
thuggish, as I say, coup attempt. And a thuggish coup attempt 
does not justify creating a dictatorship and an oppressive 
regime allied with radical Islamic forces and eliminating pro-
Western people from areas of influence in their country. There 
is no justification for it, although we have to recognize, as 
all of our folks have, that they have gone through a trauma.
    However, that is where my line of questioning begins, I 
would suggest, I believe, that just what you can presume that 
this didn't just happen in terms of the response. This was not 
a response to something that happened. That response was in 
place. In other words, there--and I will ask Mr. Yayla about 
this. You said that, within a matter of hours, thousands of 
people were being arrested. What does that indicate to you as a 
former officer in Turkish intelligence and law enforcement, 
that those arrests were ready to be made even before the coup? 
Isn't that correct?
    Mr. Yayla. Definitely. You cannot make just a list of 1,653 
people from the military as the police--or as the intelligence, 
because the lists are not out there. So those lists were 
studied, analyzed, investigated at least, in my experience, 6 
months before. And in hours, very short term, while you are 
dealing with the trauma, with all your forces in the field 
fighting against the coup makers, with your intelligence and 
investigators on the--taking precautions and preventative 
measures, you cannot prepare a list of 1,653 military officers 
and most of whom were not directly involved with the coup, 
also. Several of them were taken from their vacation places. 
And there was not any indication that those people were related 
with the coup.
    Mr. Rohrabacher. So we have all kinds of people who had 
nothing to do with the coup----
    Mr. Yayla. No.
    Mr. Rohrabacher [continuing]. Who have been arrested, and 
we have, obviously, a list of people to be arrested long before 
the coup even happened.
    Mr. Yayla. Yes. In the list, there were deceased people. 
There were several people wrongly listed, and they were already 
fired. Even though they were fired, they were relisted. So it 
also shows that the lists were prearranged because they refired 
five people.
    Mr. Rohrabacher. Right. I would like to ask our first two 
witnesses to put this in perspective for us. Was there this 
type--was there a major increase, because last time we had a 
hearing, that is one of the things we talked about, an increase 
of repression going on in Turkey before the coup? Did we see 
journalists arrested? Did we see newspapers closed? Did we see 
opposition parties or whatever suppressed before the coup?
    Ms. Ognianova. I can speak about the situation with the 
press and the media. We have been following daily events, press 
freedom events in Turkey for years, but because of the 
magnitude of the crackdown, which had started months and months 
before the coup attempt, we were compelled to create a daily 
chronicle of those events. We started putting it out in March, 
which is when the--we thought that was the peak of repressions, 
when the Zaman--the Feza media group, which includes Zaman and 
a number of other big pro-Gulen media, were basically 
confiscated by the state.
    Mr. Rohrabacher. And that is--when was that?
    Ms. Ognianova. That was in March. And that was really a 
peak moment that we thought that this was the culmination of 
months and months before that of repressions, but we were wrong 
because after we started this daily chronicle in March, we 
started reporting and documenting dozens of cases on a weekly 
basis.
    Mr. Rohrabacher. Dozens of cases----
    Ms. Ognianova. Dozens of cases of violations of press 
freedom, including detentions of journalists, prosecutions on 
politically motivated charges, including terrorism charges, 
criminal charges, insult charges, the de facto imprisonment of 
detained journalists, the shuttering of media outlets----
    Mr. Rohrabacher. Okay.
    Ms. Ognianova [continuing]. Their confiscation by the 
government and their use for--basically they became 
mouthpieces.
    Mr. Rohrabacher. Okay. Thank you. We see, in the press 
area, there was this repression a long time before the coup.
    Ms. Ognianova. A long time before the coup.
    Mr. Rohrabacher. So no matter how thuggish the coup was, 
that can't be an excuse for the tyranny that happened even 
before it and, as we heard from the witness, was probably 
arranged--the thousands of people were probably arranged even 
before there was a coup.
    Mr. Makovsky what about--excuse me. The press, what about 
other opposition parties, et cetera, did we have that type of 
repression before the coup?
    Mr. Makovksy. Yeah. Absolutely. I would fully associate 
myself with Ms. Ognianova's remarks. And as I testified last 
time, media repression in Turkey has been going on for years, 
and a lot of it has been very insidious and not so visible: In-
house censorship, a lot of self-censorship, many firings have 
been going on for a long time. Most people who work on Turkey 
in this town have many friends who suffered as a result, 
journalist friends and--suffered well long before the coup.
    I wonder, Mr. Chairman, if it is the appropriate time, I 
was going to say a word or two about the Gulen movement and 
the----
    Mr. Rohrabacher. You know what? Let's hold that off until 
the other questions----
    Mr. Makovksy. Sure.
    Mr. Rohrabacher [continuing]. But I will suggest, unless 
one of my colleagues would like to ask specifically about it, 
but if it does not get covered in the questions, we will come 
back, and I will be asking all of you what specifically you 
believe about the Gulenist movement. Is it indeed a 
conspiratorial movement that tries to in some way capture power 
from a democratically elected government?
    And do you have one comment on whether or not this 
repression that came immediately after the coup and what we 
have been talking about was in some way already in place before 
the coup?
    Mr. Stein. I would agree with most of the statements from 
the colleagues. Yes, because it was in place of when the Gulen 
movement and the AKP had their political falling out in 
December 2013, so I would say beginning in January 2014 was 
when you had what we would call purges beginning. And so, yes, 
those lists were already there, because the targeting of the 
Gulen movement and its listing as a terrorist organization in 
Turkey had already taken place before that.
    Mr. Rohrabacher. Right. And correct me if I am wrong. The 
falling out--that the Gulenist movement supported Erdogan prior 
to--well, when he was first coming to power politically, and 
the falling out they had was after the Gulenists in the media 
reported on corruption of the Erdogan government. Is that 
correct?
    Ms. Ognianova. If I can just----
    Mr. Rohrabacher. Right. That is when--okay. Jump in at that 
point, and then we will go on to my colleagues.
    Ms. Ognianova. There were released recordings of 
conversations, or alleged conversations, between government 
officials, including Erdogan, and his family members and other 
members of his----
    Mr. Rohrabacher. Right.
    Ms. Ognianova [continuing]. Circle that were leaked on 
social media first, and from there on, the media picked them 
up.
    Mr. Rohrabacher. But the----
    Ms. Ognianova. So they were first leaked on----
    Mr. Rohrabacher. But the actual----
    Ms. Ognianova [continuing]. The media----
    Mr. Rohrabacher. But the actual----
    Ms. Ognianova [continuing]. On social media.
    Mr. Rohrabacher. The releases were releases concerning----
    Ms. Ognianova. Corruption.
    Mr. Rohrabacher [continuing]. Corruption. Right.
    Ms. Ognianova. Correct.
    Mr. Rohrabacher. That is an----
    Ms. Ognianova. Correct.
    Mr. Rohrabacher [continuing]. Important distinction between 
somebody who gets mad because his children are being talked 
about in a bad way on social media versus somebody who is angry 
because his corrupt practices that were enriching him and his 
family have been exposed. It is a big difference.
    It is yours. Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    As I indicated in my opening statement, you know, I am 
always concerned about democracy and democratic institutions. 
So my first question would be, were any members of the 
Parliament allegedly a part of the coup d'etat? Does anybody 
know? From any parties. Were any arrested or charged with 
anything or dismissed from the Parliament or anything of that 
nature?
    Mr. Makovksy. There were charges against some of the 
Kurdish members of the Parliament, but not specifically about 
the coup.
    Mr. Meeks. Right. I am talking about the coup. I am talking 
specifically about the coup at this point.
    Mr. Makovksy. Not to my knowledge.
    Mr. Meeks. Okay.
    Mr. Yayla. Not the Parliament members, but Baskan Saban 
Disli, deputy general director of AKP, was reported--Major 
General Mehmet Disli was reported to be among the coup makers. 
And, in fact, Akar testified that he put a gun on his head to 
sign off to a coup statement. However, strangely, when Akar was 
saved from Akinci Base, Mehmet Disli, Major General Mehmet 
Disli was with him arriving the Presidency, and on 16th 
morning, Mehmet Disli, Major General Mehmet Disli, brother of 
Saban Disli, the AKP deputy general director, arrived to the 
Prime Ministry with Akar, chief of staff.
    Mr. Meeks. Right. I am specifically focused on the 
Parliament right now.
    Mr. Yayla. That is the only connection I have.
    Mr. Meeks. Right. I want to know about that because, you 
know, that is part of democracy, because part of what I believe 
democracy also includes is elections, and there were 
parliamentarian elections in 2015, I believe. And I don't--you 
know, I think that we should change governments but via 
democratic elections, you know, like a President, like a Prime 
Minister, you know, member of Parliament, you remove them by 
elections, and so that becomes tremendously important to me.
    Let me also ask, because I am trying to make sure that I 
understand what, if any, differences there are, particularly in 
dealing with journalists, A, are the journalists freely able to 
report on the failed coup and the aftermath and what took place 
in Turkey, and B, how would you describe how journalists--or 
the differences between how journalists are treated in Turkey 
as opposed to Russia?
    Ms. Ognianova. Well, the answer to the first question is a 
plain and simple no. They are not freely able to report on the 
coup or on any other sensitive issues. Turkey had been using 
overly broad antiterror laws for months before the coup, but 
now there is, plain and simple, no independent and opposition 
media to be voicing an alternative version of events to what 
the government is broadcasting happened during the July events.
    As I said before, more than 100 media outlets were shut 
down directly after the coup. And these figures, the 100 
detained, the 46 broadcasters shut down and accreditation 
taken, are merely a snapshot that were taken a couple of weeks 
after the coup. The events on the ground are evolving, and 
unfortunately to the worse for journalists. So chances are 
there are many, many more journalists detained.
    But, as far as we know, there is no alternative voices that 
are available on the ground at the moment, minus the social 
media, Twitter, which has also been under attack----
    Mr. Meeks. Attack.
    Ms. Ognianova [continuing]. In Turkey.
    And in regard to the comparison with Russia, well, in the 
months before the coup, I personally had made this comparison 
between the tactics that President Putin had been taking in 
regards to the Russian media for the past 10 years and what Mr. 
Erdogan had been able to achieve in a matter of a couple of 
years. In 3 or 4 years, Erdogan and his government were able to 
achieve the level of censorship in Turkey and Turkish media 
that the Russian Government had been able to achieve within 10 
years.
    Mr. Meeks. Okay.
    Let me ask Mr. Stein, how have coups in Turkey's past 
affected Turkey's relationship to the United States and within 
NATO? And how do you see this failed coup playing out in 
relation to others?
    Mr. Stein. I think this coup attempt differs because it 
wasn't successful, you know. And so what you had is a group of 
military officers who did not succeed in their mission, which 
was, I think, first and foremost, to decapitate the government.
    And because of that, because of the purges, I think you 
will have an effect on the Turkish-NATO relationship, largely 
because general fear or sort of skepticism about Western 
institutions is very high in Turkey right now. A lot of the 
forces involved in the Istanbul component of the coup attempt 
were part of NATO's, you know, rapid deployable force. And so 
it breeds a conspiracy theory that NATO must have also known 
about the coup beforehand. And so, when you begin to lose 
officers who were exposed to NATO, you know, were operating 
within NATO, obviously, it creates friction between the two.
    And I would say, just generally, when there are large-scale 
purges going on in any institution, people operating in those 
institutions are less free to speak their minds or to speak 
critically of, you know, their superiors. And so you will have 
a tendency within the armed forces basically to run everything 
up the chain of command so that you aren't, you know, sort of, 
accused of stepping out of line or stepping too far out of 
line. And so things will begin to slow down all throughout 
Turkey, at least in decisionmaking processes, and be made at 
the highest levels.
    Mr. Meeks. Thank you.
    And my last question would be to Mr. Makovsky.
    One of the things that I believe also sometimes threatens 
democracy is when countries get so nationalized, nationalism. 
So I would like to ask you, what are the consequences of the 
rise of Turkish nationalism?
    And within that rise, are there any liberal voices calling 
for the protection of institutions regardless of the party in 
power? Let's remain that we need to talk to or get close to 
understand--get a better understanding of what is going on.
    Mr. Makovsky. Well, I think the primary consequence of the 
rise of nationalism is that it will make it extremely 
difficult, if not impossible, to repair relations between Turks 
and Kurds.
    There had been a peace process. That peace process fell 
apart, actually, last year. And I think it is now clear, I 
think President Erdogan has made clear there will now be all-
out war on the PKK. And the, sort of, scorched-earth policies 
of attacks in the southeast will alienate the population, 
already has alienated the population.
    But I think fighting the PKK has great support in Turkey. 
It always has. And, actually, I think--I know I refer to polls 
a lot, but there was one recently; which is the terrorist group 
that threatens us the most? And PKK was far and away number 
one; Fethullah Gulen, number two; ISIS, number three. I think 
that will be the primary result.
    Are there liberal voices? Yes, there are still liberal 
voices. And I think particularly from the secular opposition 
party, center-left party, there has been a lot of criticism, 
particularly lately, about the purge. There was initially 
nationwide support for the purge, but lately the leader, Kemal 
Kilicdaroglu, of that party has been speaking out against its 
excesses and also, I think, speaking out against some of the 
excesses against the Kurds. So, there are liberal voices.
    Also, I would just say, on the media, I don't think we 
ought to think it is North Korea. What it is is a very random 
process. There are still journalists you can read that 
criticize the government. I think if you look at the Hurriyet 
Daily News today, you will see a couple of op-eds that are 
critical of the government. The problem is the journalists 
never know when that pink slip is going to come. And so I--and, 
of course, they do a lot of self-censorship.
    Thank you.
    Mr. Meeks. Thank you. Thank you very much.
    Mr. Rohrabacher. Colonel Cook?
    Mr. Cook. Thank you, Mr. Chair.
    Dr. Stein, going back to the military situation, the U.S. 
military is obviously caught between a rock and a hard place. 
And this anti-American--how about all the dependants? Is there 
a restriction now on American military personnel, their 
families being outside the wire, so to speak, where, before, 
you could visit the whole country and anywhere, right? Isn't 
that in effect right now?
    Mr. Stein. Yes, it is.
    Mr. Cook. And the same thing with Incirlik? Even though we 
have a lot of military operations, everything is under the 
total control of the Turks in terms of airspace and everything 
that goes on there?
    Mr. Stein. That is also correct, yes.
    Mr. Cook. Yeah.
    And you kind of alluded to it. Yeah, I know it is a NATO 
ally, I know everything like that, but we have to face reality. 
If they want to shut down all U.S. American operations 
tomorrow, they could do it because they control everything.
    The comment I made about the F-35s, do you have any 
reaction to that question that I refer to? Your feelings? Yes? 
No? Maybe?
    Mr. Stein. I think Turkey is--it is a Tier 3 partner in the 
program and has obviously invested money on it. And they will 
host both the maintenance facility, I believe, for the engines 
inside Turkey and are producing fuselages for the program. So, 
yes, I think it should be approved.
    Mr. Cook. Even with the fact that getting that technology, 
their new friends are the Russians? Why not just give it to the 
Chinese or sell it to the Chinese, which is the rationale why 
we are developing that weapon, right?
    Mr. Stein. I think it is important to distinguish between, 
say, the Russians-Chinese potential adversaries and a NATO 
ally, so--but I do think that there are frictions over sort of 
the----
    Mr. Cook. Okay. Sometimes we get it mixed up. Snowden 
stopped off in China; then he went to Moscow. So maybe I am old 
and I get them confused sometimes.
    I am very, very, very worried about the Kurds. This is our 
ally. We had talked about them. We have deserted them in the 
past, with the history of Middle East. And it is like, here we 
go again.
    And, yeah, they have been--and I see it is not going to be 
just the PKK, I think. Quite frankly, I think they are going to 
kill a number of them because of the population demographics 
and the fact that they can have a political influence, and this 
is obviously the opportunity to finally eliminate the Kurds as 
a political threat once and for all.
    Do you agree with that premise?
    Mr. Stein. No, I don't. I think that they took a different 
tactic between 2013 and 2015 to try and reach political 
concessions. But one--the previous, Mr. Meeks' question about 
the rise of nationalism and perhaps poor decisionmaking by 
elected leaders is that you can lose touch with your population 
and then you can have a return to insurgency in the southeast, 
and I don't see a way out of that. But, no, I don't think that 
the plan is to eradicate the Kurds in Turkey.
    Mr. Cook. Well, not completely, but to the point where they 
are not going to be a viable third party in Turkey. I believe 
it is 11 percent. Correct me if I'm wrong.
    Mr. Stein. I believe at the last election it was 10.7, 
about 11 percent, yes.
    Mr. Cook. And the threshold is 11, right?
    Mr. Stein. Yeah.
    Mr. Cook. And you don't think there is going to be any type 
of discrimination to push them over the border or eliminate 
them, almost similar to the Russians in Chechnya in terms of 
some of their policies?
    Mr. Stein. No, I don't think so. Although if their poll 
numbers do drop below 10 percent, you could have the AKP 
government contemplate early elections.
    Mr. Cook. Okay.
    Last question, I guess, going back to Russia. You know, a 
year ago, those of us in the NATO arena, we were worried about 
the snap exercises, flying in over Kaliningrad, everything like 
that. And the three countries that a lot of the NATO theorists 
thought would destroy the NATO alliance were Estonia, Latvia, 
and Lithuania; Latvia because they have such a high number of--
Jerry is looking at me--Russian speakers.
    And now I am saying here is a golden opportunity for Putin 
to grant his wish, and that is to destroy the NATO alliance. 
And you would not suggest that right now, instead of 
concentrating on those nations--this is a golden opportunity 
for Putin to finally separate, get Turkey out of the NATO 
alliance. For all intents and purposes, I think he would 
destroy it.
    No comment? Anybody?
    Mr. Stein. I do think that there are parallels between 
Putin's current strategy versus how the Russians have 
historically approached, say, you know, East Germany during the 
cold war and exactly why it is important to lean in and 
continue to engage with Turkey and perhaps with----
    Mr. Cook. No, no. I meant in relation to Estonia, Latvia, 
and Lithuania.
    Mr. Stein. I can't comment on that.
    Mr. Cook. Okay.
    Anyone? No one agrees?
    Okay. I think I am used up. I yield back. Thank you.
    Mr. Rohrabacher. Thank you, Colonel.
    I will just note, from everything that I have read about 
the F-35, well, maybe we should give it to the Turks at this 
point. We wouldn't necessarily be doing them a favor, from what 
I understand.
    Mr. Weber?
    Mr. Weber. I think you have Mr. Connolly.
    Mr. Connolly. You are up because I am not on the 
subcommittee.
    Mr. Rohrabacher. You are on the committee.
    Mr. Weber. If I had known that, I would have written down 
some questions.
    Mr. Connolly. I can take the time and then come back.
    Mr. Weber. Go ahead. I am good with that.
    Mr. Rohrabacher. Mr. Weber yields to Mr. Connolly.
    Mr. Connolly. I thank my friend from Texas.
    I am here both as a member of the House Foreign Affairs 
Committee and as the co-chairman of the Congressional Caucus on 
Turkey. I happen to believe that the U.S.-Turkey relationship 
is a very strategic and critical one. It is not one that can be 
dispensed with. I also happen to believe that it is in Europe's 
interest to see ultimate Turkey integration with the West and 
with Europe.
    However, I share the concern of the chairman and my 
colleagues that President Erdogan, in his desire to consolidate 
power after a thwarted coup--and, by the way, the thwarting of 
the coup had universal sympathy. It had political sympathy in 
Turkey among the opposition parties. It had virtually complete 
sympathy here, in the West. It was condemned by all the right 
people. And in a very short period of time, politically, by 
overreaching, it would seem that President Erdogan has actually 
lost sympathy.
    And I am very concerned about crackdown on the press, 
crackdown on political dissent, crackdown on political 
opposition, and, of course, using the coup, perhaps, as a 
pretext to get at any and all Gulenists, real or perceived.
    And, Mr. Makovsky, I know that the chairman was going to 
give you an opportunity to talk a little bit more about Gulen, 
and I would welcome anybody else.
    But I met with a Turkish delegation recently, and, from my 
point of view, look, the rule of law applies to you and to us. 
And you don't get to demand someone's extradition as some kind 
of symbol of our undying support. The burden is on the 
Government of Turkey to present evidence that would meet any 
reasonable legal threshold to justify the extradition of any 
individual, including Mr. Gulen, no matter how unpopular he may 
be in your ruling circle. And the fact that we don't do that in 
no way can be construed or should be construed as lack of 
support of this government for your government.
    I wonder if you would comment on that. Because I was 
alarmed by the seeming lack of appreciation for what, to us, is 
a fairly simple legal precept. And you can expand on Gulen, 
with the consent of the chair.
    Mr. Makovsky. I completely agree with you, Congressman. I 
think it has been difficult for the Turks to understand--and 
those who do in the leadership understand have certainly not 
tried to educate their public--that this process is about hard 
evidence. And just as you said, if the hard evidence is there, 
then almost certainly Mr. Gulen will be extradited.
    As I understand it, this process is primarily done in the 
Justice Department. They decide if it is worth sending to the 
courts. If the courts decide he is extraditable--I mean, there 
can be an appeal process, but assuming that he is deemed 
extraditable, the State Department has final sign-off. And the 
State Department has the right to make sure, before signing 
off, that he will receive a fair trial and humane treatment. 
But that is the basic process. If the hard evidence isn't 
there, he cannot be extradited.
    Look, I just wanted to say something regarding the 
movement, the Gulen movement itself, because it is very hard to 
separate now discussion of post-coup Turkey from a discussion 
of the nature of the Gulen movement.
    I think there are two very positive and significant 
hallmarks of the movement that distinguish it from a lot of 
Islamic movements, particularly radical movements that we have 
become very familiar with in this century and earlier, and that 
is they established a lot of schools that focused on subjects 
like math and science instead of religion, and they preached a 
message of peace and tolerance and interfaith comity.
    That said, however, I think there is now a strong set of 
circumstantial--circumstantial--evidence that Gulenists have 
used the institutions of the Turkish state in order to pursue 
their enemies. This was particularly true with--or is widely 
believed to have been the case with the judicial actions 
against primarily military officers and other seculars in 2008 
through 2010. And many innocent people, now free, now the 
conviction has been overturned, but many innocent people 
suffered and went to jail because of that.
    I think there is some strong reason to believe that 
Gulenists were involved and were driving the process. That 
said, the fact that followers of Mr. Gulen may have been 
involved in such things or even in the coup doesn't make Mr. 
Gulen himself guilty. And I think that is what has to be 
decided through the evidence presented by the Turks in the 
extradition case.
    Mr. Connolly. I thank the chairman and my good friend Mr. 
Weber for their courtesy.
    Mr. Rohrabacher. Do you yield back to Mr. Weber?
    Mr. Connolly. I certainly do.
    Mr. Rohrabacher. Mr. Weber, you are recognized.
    Mr. Weber. Thank you.
    Would you slide his questions over here to me?
    Dr. Stein, you said in your comments, if I understood 
correctly, that it was hard to put your finger on why Turkey 
was so important abroad. Is that what you said?
    Mr. Stein. What I meant is it is hard to point to one 
single thing. You know, you can replace air bases, you know, 
but it is hard to replace the idea of a strong transatlantic 
relationship. And so it is that nebulous idea of strong 
transatlantic ties that makes Turkey most important.
    Mr. Weber. Okay. Well, let me do it this way then. How 
about if we just use one word, ``geography''?
    Mr. Stein. That is a good word.
    Mr. Weber. Okay. So you would agree that, if for no other 
reason, their geographical location is fairly strategic?
    Mr. Stein. Absolutely.
    Mr. Weber. Okay. I rest my case, Your Honor. I thought so. 
I mean, it is extremely important, especially with Syria and 
all of the unrest. We need that ally. And, of course, I could 
go into energy pipelines and the finds in the Mediterranean Sea 
and the islands of Cyprus and just on and on and on. But Turkey 
is a very, very strategic, in my opinion, country that we need 
to be absolutely sure we take every necessary step--reasonable 
step to keep them as friendly to the United States as we can.
    Having said that, I think it was--pronounce your last name 
for me, ma'am.
    Ms. Ognianova. ``Ognianova.''
    Mr. Weber. ``Ognianova''? Okay. I think it was you who said 
that you began your daily chronicle of the problems with the 
media in March 2016.
    Ms. Ognianova. That is correct.
    Mr. Weber. Are you a Turkish citizen?
    Ms. Ognianova. No, I am not a Turkish citizen, nor am I an 
American citizen, but I have been covering Turkey since 2012. 
And what I said in relation to that daily documentation was 
that I wanted to stress when we were compelled to start a daily 
chronicle of coverage on Turkey. We have always covered Turkey, 
like any other country----
    Mr. Weber. From 2012?
    Ms. Ognianova. I have covered Turkey since 2012. CPJ has 
been covering it for years and years on end.
    Mr. Weber. Okay.
    Ms. Ognianova. It came on my personal purview in 2012, and 
since then, we have been covering Turkey very regularly. But 
this March, we were compelled to start a daily chronicle----
    Mr. Weber. Okay.
    Ms. Ognianova [continuing]. On press freedom in Turkey.
    Mr. Weber. But you would readily admit that those kinds of 
abuses of power had been going on for years.
    Ms. Ognianova. Oh, absolutely. They have been going on for 
years. But it was this year that they reached catastrophic 
proportions----
    Mr. Weber. Okay.
    Ms. Ognianova [continuing]. And we were compelled to start 
covering press freedom issues daily. We basically became a wire 
service for press freedom on Turkey on a daily basis in March.
    Mr. Weber. Were you doing it from inside the country or 
from afar?
    Ms. Ognianova. Well, we are headquartered in New York, but 
we have a correspondent----
    Mr. Weber. I am talking about you personally. And I don't 
mean to pry, if that is okay.
    Ms. Ognianova. I am the coordinator of the program, so in 
my program, apart from Turkey, I cover 30 other countries. 
But----
    Mr. Weber. But you aren't in Turkey itself.
    Ms. Ognianova. I go to Turkey every year. But our 
correspondent on the ground is the one who feeds us the daily 
chronicle of events.
    Mr. Weber. Okay. And----
    Ms. Ognianova. He is the reporter on the ground.
    Mr. Weber. Okay. And I think you mentioned later in the 
discussion that there are still some reporters or some media 
that still criticize the government, but they are kind of self-
regulated?
    Ms. Ognianova. Well, there are individual journalists and 
some news outlets on the margins that do that, but they do that 
at an enormous personal risk. They could be prosecuted at the 
whim of the government at any time. And now that we have the 
state of emergency, the----
    Mr. Weber. The stakes are much higher.
    Ms. Ognianova. Absolutely. And all the Parliament or 
judicial scrutiny is gone for this----
    Mr. Weber. Forgive me, but let me break in. I don't want to 
run over too much time.
    Ms. Ognianova. Uh-huh.
    Mr. Weber. Not that some others haven't.
    Would you say that the number of media organizations has 
gone from 300 in 2012, for example, to 50? Can you give me 
those numbers?
    Ms. Ognianova. I can tell you how many were purged. More 
than 100 in a matter of 2 weeks. Those are the hard numbers.
    Mr. Weber. Okay. When was that 2 weeks?
    Ms. Ognianova. Two weeks after the coup attempt.
    Mr. Weber. Oh, in that----
    Ms. Ognianova. We registered more than 100 being closed 
down. Since then, there were more that were closed down, but we 
captured that statistic 2 weeks after the coup.
    Mr. Weber. Okay.
    Dr. Stein, I am going to come back to you. In your 
discussion with Colonel Cook, I think you mentioned that there 
is anti-U.S. sentiment. Would you say it was building before 
the coup attempt, or was that primarily since the coup attempt?
    Mr. Stein. The United States has never really been all that 
popular inside Turkey, so levels of anti-American sentiment has 
always been high. But, you know, it has reached new levels. It 
is levels I have never seen before. And, you know, things that 
escape detection, you know, prominent people on their sort of 
equivalent of cable talk shows going on television every single 
night and pointing to CIA involvement----
    Mr. Weber. Did that grow when Erdogan, in the last, say, 6 
years, since he has begun to dismantle the constitution?
    Mr. Stein. I would say it has grown most heavily in the 
past year with the breakdown of the peace process and our 
actions in Syria.
    Mr. Weber. Okay.
    I am concerned about the military base established in 1951, 
3,300 acres in an area--Incirlik? Is that how you say that?
    Mr. Yayla. ``Incirlik.''
    Mr. Weber. ``Incirlik''? In an urban area of 1.7 million 
people. The colonel alluded to that, them being inside, I 
guess, the compound proper, the base. Are they in danger?
    Mr. Yayla. Are they----
    Mr. Weber. Are the military personnel there on our base, 
are they in danger? Yes, sir. Go ahead, Dr. Yayla.
    Mr. Yayla. I believe they are in danger. And the reason for 
that is that after the coup, per Erdogan, media finger-pointed 
Americans so harshly that people on the street, because they 
cannot feed themselves with other free media, started to 
believe that the coup was really carried out by the American 
soldiers, with their support.
    Mr. Weber. Okay.
    Now, somebody else said that--was it Twitter was under 
attack? How so?
    Ms. Ognianova. In the many cases of detentions of 
journalists, prosecutions of journalists, those detentions have 
happened in retaliation for tweets, not simply articles 
published or broadcast.
    Mr. Weber. It is not the Twitter company, per se, but 
whoever is doing the tweeting.
    Ms. Ognianova. Whoever is doing the tweeting is being 
prosecuted, detained, et cetera, but we have to say that 
Twitter, as a company, has censored a number of accounts----
    Mr. Weber. Okay.
    Ms. Ognianova [continuing]. On the questions and requests 
of the Turkish Government.
    Mr. Weber. Okay.
    Ms. Ognianova. And we are now trying to figure out why they 
have done that.
    Mr. Weber. So we are losing civil rights hand over fist.
    Now, Fethullah Gulen, but all accounts--one of you said 
it--is teaching multiculturalism, diversity, and he is going 
some good work in terms of schools. Is that you all's general 
consensus, the panel here?
    Dr. Stein?
    Mr. Stein. He is not new in Turkish society. And I think 
the allegations that he is an insidious character in Turkish 
society has been around since the 1970s, and that is why the 
purges have such wide-scale support.
    Nobody really likes him because, while he does good work 
because he does set up charter schools, sometimes violating our 
own laws in terms of fair hiring practices, he is widely 
believed to be instructing his followers to infiltrate Turkish 
institutions to try and remake the Turkish state.
    Mr. Weber. Dr. Yayla, do you concur with that?
    Mr. Yayla. No, I don't, but it is very difficult to talk 
about it because, as soon as I speak, I am going to be labeled 
as Gulenist. But, however, I have to speak the truth.
    I spent years on the ground to fight against terrorism, and 
I raided several thousand apartments for that because of the 9-
1-1 calls saying that or tipping that there are terrorists in 
those flats, especially in Ankara. And this happened on several 
occasions. And with those raids, we raided several Gulen flats 
where students were staying, deemed from the outside as 
terrorists.
    I have never, or my people, my officers, never found 
anything to incriminate in terms of violence. However, if it 
was a terrorist organization flat, there was always evidence.
    Mr. Weber. Oh, absolutely.
    Mr. Yayla. And then I think Gulenist people came out in 
regards to radical Islam and to jihadi terrorism, especially 
after 9/11 and with the ISIS, as the strongest voices against 
terrorism. Gulen himself was one of the few persons who came 
out and said----
    Mr. Weber. Right.
    Mr. Yayla [continuing]. That a terrorist cannot be a 
Muslim, a Muslim cannot be a terrorist.
    Mr. Weber. Let me move over here to Mr. Makovsky, but 
before I do, you had a son that was arrested?
    Mr. Yayla. Yes.
    Mr. Weber. And what is his status?
    Mr. Yayla. My son was arrested when he was leaving legally 
from the borders. Because my passport was canceled, I----
    Mr. Weber. He is still under arrest?
    Mr. Yayla. He is still under arrest. And he was released. 
As soon as he was released, he was rearrested in front of the 
prison again.
    Mr. Weber. Okay. And how long----
    Mr. Yayla. The only charge is being my passport is 
canceled.
    Mr. Weber. Has that been since July 15th?
    Mr. Yayla. Oh, yeah. After I wrote an article saying that I 
don't believe this was a real coup.
    Mr. Weber. Well, we wish him the best----
    Mr. Yayla. Thank you.
    Mr. Weber [continuing]. And hopefully he will be able to 
get out.
    Mr. Makovsky, do you agree with the statement that, 
generally speaking, Gulen is viewed as doing some pretty good 
things?
    Mr. Makovsky. You are talking about within Turkey?
    Mr. Weber. Well, we would say--over here--well, let's 
just--you make an interesting point. Here and in Turkey.
    Mr. Makovsky. Look, as I said, he is, I think, viewed by 
many people--because of the nature of the schools and the 
teachings, he is viewed by many people here as something 
hopeful, a hopeful sign----
    Mr. Weber. Okay.
    Mr. Makovsky [continuing]. In the Islamic world. In Turkey, 
there has been, I think, widespread criticism of him. He was 
initially----
    Mr. Weber. More so since July 15th?
    Mr. Makovsky. Well, absolutely.
    Mr. Weber. Okay.
    Mr. Makovsky. He--if I could----
    Mr. Weber. So Erdogan has, you would argue, perhaps, has 
been successful in making him part of the scapegoat.
    Mr. Makovsky. Yeah, he has been demonizing him. And there 
is no doubt that there is a vendetta, particularly since 
December 2013----
    Mr. Weber. Okay.
    Mr. Makovsky [continuing]. As we discussed earlier.
    Mr. Weber. Let me move on, I am way over, if I may.
    And can I just call you Nina?
    Ms. Ognianova. Yes.
    Mr. Weber. Do you agree with that assessment?
    Ms. Ognianova. Well, I haven't seen any evidence against--
--
    Mr. Weber. But you are reading all the tweets.
    Ms. Ognianova. And I think that we should come from the 
presumption of innocence and everyone should be innocent before 
proven guilty.
    Mr. Weber. Sure.
    Ms. Ognianova. And that has been the biggest issue with 
this crackdown, is that it is continuing without us having seen 
any evidence against these detainees.
    Mr. Weber. Well, with how many prearranged warrants did one 
of you say? There was how many people were arrested within a 
couple of days?
    Mr. Rohrabacher. Hours.
    Mr. Weber. Hours.
    Ms. Ognianova. I mean, hundreds of warrants, but----
    Mr. Weber. Right.
    Ms. Ognianova [continuing]. In terms of journalists----
    Mr. Makovsky. July 16th, the very next day, 2,745 judges 
were arrested.
    Mr. Weber. And, you know, if you do the math on that, if 
you signed a warrant a minute, that is 2,500 minutes, okay?
    Ms. Ognianova. I mean, no wonder that now the prisons are 
being cleaned of actual convicted criminals so that there could 
be enough space for the detainees after the coup plot.
    Mr. Weber. Yeah.
    Ms. Ognianova. I think what is really important is to note 
that the cancellation of passports is a critical issue at the 
moment. And many, many civilians have been canceled, their 
passports--journalists, civil activists, and their families, 
like we see in the case of Dr. Yayla. And we should be very 
vigilant about that. The U.S. leaders should not recognize 
these canceled passports.
    Mr. Weber. Well, thank you. I am way over time.
    Thank you, Mr. Chairman.
    Mr. Rohrabacher. All right.
    Now, to bring this hearing to a close, we are going to ask 
Mr. Meeks, any questions he has about the Gulenist movement, 
but anything else and to have a wrap-up statement.
    Mr. Meeks. Well, I don't have any specific question about 
the Gulenist movement. I think that it is a complicated 
scenario.
    I think the entire relationship and where we are with 
Turkey is very, very complicated. When I look at the scenario 
and this nationalism, I know, the passion of nationalism 
generally also creates emotionalism, whether it is in Turkey or 
whether it is in the United States or wherever it may be.
    I do know that we have a firm commitment to make sure that 
wherever, in Turkey, in Russia, in the United States, whether 
it is violation of human rights, where we don't have freedom of 
the press, where we don't have sound institutions, we have to 
speak out. We can't be silent about that. We can't just allow 
it to go.
    That does not mean that we want to be enemies or anything 
of that nature. That means we want the same things for all 
people--human rights, freedom to determine your own self-
determination. And when any of those things are not happening, 
I think we need voices to speak out loudly and clearly.
    And if you don't feel--you know, for me, not equating the 
two, but what is great about the United States, in my 
estimation, is when I have a scenario like Colin Kaepernick, 
that he has the freedom to express----
    Mr. Rohrabacher. His ignorance.
    Mr. Meeks [continuing]. His--well, you say it is his 
ignorance. It is the freedom of this country. Because if you 
say Turkey, they will say it is ignorance also, with something 
that we disagree with, and that is why it is complicated. But 
you should have the freedom to express yourself, because people 
feel differently.
    I mean, for example, for us, our number-one enemy is Daesh, 
or ISIL, because we feel threatened by them. To the Turks, it 
is the PKK, because they feel threatened by them. So we can't 
self-impose how they feel and say, well, you should feel 
exactly the way we feel, and if you don't feel the way we feel, 
you are wrong. Nor should they. And that is kind of where we 
are.
    And I think Mr. Stein said, yes, geography does have a lot 
to do it. Yes, the fact that they are NATO allies has a lot to 
do with it. Yes, because we want to make sure that we are not 
condemning the entire Muslim population has something to do 
with it. If you have moderate Islamic countries, we want to 
make sure that we are engaging with them. We don't want to get 
rid of them. That is why it is important and why I think also, 
in the United States, we have Muslims, we have Christians, and 
they all should be welcome.
    So my summary is, there is a lot of work and thought and 
negotiations that have to happen here. This is not a simple 
matter of you are right and you are wrong. It is a matter, 
though, that I think is unquestioned, that the number of 
individuals that have been arrested and detained and the 
journalists is a violation of human rights, that they are 
entitled to hearings and jurisprudence and should be returned, 
and it should not be something--that is something that is 
wrong. And we have to speak out about that loudly and clearly 
even if they are an ally, but also understand that we would be 
doing this because we want to work together, and our 
relationship is so important that we have to figure this thing 
out.
    And I thank the witnesses for your testimony.
    Mr. Rohrabacher. Thank you, Mr. Meeks.
    And I will just--a couple short questions, and then I will 
do a little wrap-up.
    In terms of the Gulenists, let me ask--so far, it sounds 
like you are the only one who believes that the Gulenists, or 
at least some Gulenists, are involved with a nondemocratic 
approach to power, meaning being willing to be part of a coup 
and things such as that.
    We will go with--first, let's ask Mr. Stein.
    Mr. Stein. I won't speak for the other panelists, although 
I presume that others probably think----
    Mr. Rohrabacher. Well, I am going to ask them too.
    Mr. Stein [continuing]. Like I do.
    I think the Turkish people think that. And I think it is 
important, if we want to understand how they are----
    Mr. Rohrabacher. What are your--you are a specialist. Do 
you believe that the Gulenists were the organizing force behind 
this coup?
    Mr. Stein. I can't speak to that because I haven't seen any 
evidence to that.
    Mr. Rohrabacher. So you don't know----
    Mr. Stein. But were they infiltrating Turkish institutions? 
Absolutely.
    Mr. Rohrabacher. Okay. But you don't know, and that is your 
answer to that question.
    Mr. Stein. I don't know because the events of July 15th 
have not been told in full detail.
    Mr. Rohrabacher. Okay. Okay. Whatever the reason. I mean, 
you are an expert in a lot of these areas, including this, but 
there is not information enough for you to have made up your 
mind on that.
    Mr. Stein. No, I haven't seen anything.
    Mr. Rohrabacher. All right.
    How about you, Mr. Yayla?
    Mr. Yayla. I don't believe that Gulenists were behind the 
coup because I have worked with several high-level generals in 
the military in the field, and most of the generals and high-
level commanders in the military are known for their strong 
secularist approaches, and many of them do not like or hate 
Gulen. So I don't buy that.
    Mr. Rohrabacher. Okay. So it is no.
    Mr. Makovsky. As I tried to explain earlier to Mr. 
Connolly's question--perhaps I did so fairly inarticulately--I 
agree with Dr. Stein that there is strong circumstantial 
evidence that Gulenists have infiltrated, tried to infiltrate 
the----
    Mr. Rohrabacher. But that is not the question.
    Mr. Makovsky. The question is just about the coup?
    Mr. Rohrabacher. That is correct.
    Mr. Makovsky. I think we know nothing at this point about 
the coup. And I----
    Mr. Rohrabacher. Okay. So we don't know. So your answer is 
you don't know because we don't know enough about--and you 
don't know if the Gulenists were involved in the organizing the 
coup or not. Okay.
    Ms. Ognianova?
    Ms. Ognianova. I absolutely concur with Mr. Makovsky.
    And I also want to add that the persons who are qualified 
to make investigations and independent investigations in the 
media about the coup plot are now intimidated into silence. So, 
not only don't we know what happened, but those who are able to 
help us know more are either incarcerated or exiled.
    Mr. Rohrabacher. So I see we don't know, but one of the 
reasons we don't know is because the government is cutting off 
information sources to give us an accurate assessment, whether 
or not even the charge.
    However, we do have one person, one witness today, Mr. 
Yayla, who served as a high-level intelligence officer in the 
police and in terms of confronting terrorism, and he has a long 
history involved and says that he does not believe the 
Gulenists were involved in organizing the coup. So, we have 
that as the answer for that question.
    In general, do you see--look, obviously, the Gulenists are 
trying to be portrayed as a conspiratorial organization.
    By the way, do Gulenists go to a particular church or 
mosque? Do they do things in public? They just have private 
meetings, that is it?
    Mr. Makovsky. That is my understanding. I have asked 
Gulenists this question, and they said they do not pray at 
their own mosques. So that adds to sort of the aura of 
mystery----
    Mr. Rohrabacher. Right.
    Mr. Makovsky [continuing]. For many churches. No one knows 
exactly----
    Mr. Rohrabacher. Well, I know that we had a problem in our 
country with a group of people who had an interesting 
philosophy; they were called Masons. And early in our country's 
history, there was this Masonic conspiracy that was supposedly 
around. But I looked at it, and I have read history--I am a 
history major, and I have done a lot of reading on it. George 
Washington was a Mason and all the rest of these people. And it 
seems to me what they had was a group of people who have shared 
values. And although they were private and did not make 
everything public, it was far from a conspiracy to try to take 
over governments, et cetera. Although, Masons had a lot of 
influence here--not enough influence to justify overthrowing 
George Washington and his government, because George Washington 
was a Mason.
    We also today we have determined that before the coup 
attempt we already had signs of tyranny and repression and, 
even more important, corruption in Erdogan's government, 
perhaps leading all the way up to Erdogan himself. The fact is 
that, before there was reporting on that corruption, Erdogan 
himself did not seem to have any trouble with the Gulenists. 
But the Gulenists felt obligated to report it, knowing it would 
break their camaraderie, their tie to the man in power.
    That indicates something good to me; that doesn't indicate 
something bad to me. That indicates that you have people who 
are courageous enough, knowing that their children could be 
arrested, even, by what appears to be someone who is becoming a 
megalomaniac. That sounds like a courageous group of people to 
me. Although they say there are people who are in parts of 
groups like this who are good people and bad people. Maybe 
there are some bad people too. We don't know.
    But I think that the fact that Turkey and the Turkish 
Government was clearly involved with repressing opposition 
prior to the coup and, immediately after the coup, arrested 
thousands and thousands of people, many of whom could not have 
possibly had anything to do with the coup, suggests to us that 
today we have to be very concerned about the nature of Mr. 
Erdogan's government.
    If he wants to use this as an excuse to eliminate real 
democratic rights of his people, if he wants to use this as an 
excuse to perhaps sever bonds with the West he is so upset with 
or whatever, if he uses this as an excuse to, for example, call 
off elections, to end the democratic things right--as if there 
is a state of emergency right now, that there is an army of 
Gulenists at the door ready to take over the country, so, thus, 
we have to arrest more people and shut up more newspapers. And 
this is--it is not only unacceptable, but it is also a historic 
disaster for the people of Turkey.
    And, again, let's go back to the fundamental, and that is 
the people of Turkey have been good friends of the United 
States. We need to be concerned about them. And we need to 
basically not only pray for them, if we are religious, pray for 
them and that they come out of this, but also do what we can to 
at least ease this government over into the right direction.
    And we can't do it by not admitting the challenge that we 
have, however, we can't do it by trying to cover up the fact 
that Erdogan--and, by the way, so when did Erdogan break with 
the Gulenists? When they started reporting on corruption that 
directly affected his entourage in government. So this is what 
everybody needs to know.
    Now, with that said, thank you all for testifying today. 
You know, we are having a crazy political year here in the 
United States.
    Mr. Meeks. We are?
    Mr. Rohrabacher. It is about the craziest year I have ever 
seen. And what is going on in Turkey and this--which will 
change everything. I mean, the alliance and the stability that 
we have had, if Turkey goes with more radical, more anti-
Western forces that are at play in Europe, the stability that 
we have had is going to go right out the window. It is going to 
change the history of the world.
    So let's pray that people who do believe in a more free 
society and acceptance and open societies and believe in peace 
and harmony with their neighbors, let's hope that these are the 
people that come to power not only in Turkey but throughout the 
Mideast.
    So, with that said, this hearing is adjourned.
    [Whereupon, at 4:10 p.m., the subcommittee was adjourned.]

  
                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
